2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

C@OCKLE

Legal Briefs

Est. 1923

No. 19-67

UNITED STATES OF AMERICA,
Petitioner,
v.
EVELYN SINENENG-SMITH,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefS.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
RUTHERFORD INSTITUTE, THE AMERICAN CIVIL LIBERTIES UNION, THE AMERICAN
CIVIL LIBERTIES UNION OF NORTHERN CALIFORNIA, AND THE SERVICE
EMPLOYEES INTERNATIONAL UNION AS AMICI CURIAE SUPPORTING RESPONDENT

in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

9

and this brief contains 6860 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 20th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

Ee

 

Notary Public

39355
